No. 21In The
SUPREME COURT of the UNITED STATES

Robert A. Heghmann,
Petitioner,

v.

Donald J. Trump and Wilbur Ross,
Respondents.

ON PETITION FOR A WRIT OF MANDAMUS TO THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

APPENDIX

Robert A. Heghmann
Pro Se
P.O. Box 6342
Virginia Beach, VA 23456
(603) 866 - 3089
Bob Heghmann@Reagan.com

afA€*c/c'A l
UNITED STATES DISTRICT COURT
for the
EASTERN DISTRICT OF VIRGINIA
NORFOLK DIVISION
x

Docket No.:
2:20-cv-159
Complaint for Declara­
tory Judgment and Per­
manent Injunction

Robert A. Heghmann,
Plaintiff,
vs.
Donald J. Trump, President of the
United States, and Wilbur Ross, Secretary, U.S.
Department of Commerce,

Three Judge Panel
Required

Defendants

February 20, 2020
,x

COMPLAINT
1. The Democratic Party beginning in 1965 weaponized Immigration Policy.
Democrats are for open borders, chain migration and social benefits for
illegal immigrants. The result of this use of Immigration as a political tool
was clearly visible in Virginia this year. As the New York Times, which
along with the Washington Post is the newspaper of record for the
Democratic Party, reported new immigrants handed Virginia to
Democrats.

Around the advent of the modern immigration system, in 1965,
foreign-bom people made up only about five percent of the American
1

population. Now they are nearly 14 percent, almost as high as the last
peak in the early 20th century. The concentrations used to be in larger
gateway cities, but immigrants have spread out considerably since
then.
Some went South. In 1980, 56 percent of adults eligible to vote in
Virginia were bom in the state. Today, that’s down to 45 percent.
Sabrina Tavernise and Robert Gebeloff, How Voters Turned Virginia
From Deep Red to Solid Blue, N.Y. Times, 11/09/2019.
2. Whether the mass immigration of the past 10 years has been good or bad
for the United States can be hotly debated but what is beyond debate is
that it has been good for the Democratic Party.
Mass legal immigration is driving Democrats towards full electoral
dominance, with left-wing politicians winning nearly 90 percent of
congressional districts with larger than average foreign-born
populations, analysis finds.
The Atlantic senior editor Ronald Brownstein analyzed Census
Bureau statistics for the 2018 midterm elections, finding that the
country s admission of more than a million legal immigrants every
year is set to hand over electoral dominance to House and Senate
Democrats.
Among Brownstein’s findings is that nearly 90 percent of House
congressional districts with a foreign-bom population above the
national average were won by Democrats. This concludes that every
congressional district with a foreign-bom population exceeding 14
percent had a 90 percent chance of being controlled by Democrats
and only a ten percent chance of electing a Republican. Joe Klamar,
Democrats Winning 90% Congressional Districts with Large
Foreign-Born Populations, Breitbart, 02/07/2019

3. American Immigration Policy is being driven by the Democrat Party’s
thirst for power, not necessarily what is best for the United States. Why
2

that is this Court’s constitutional concern is that the Democrats are
pursuing this policy at the price of the “One Person, One Vote”
Constitutional Mandate.
4. The Plaintiff in this case will challenge the apportionment of
Congressional Districts in Virginia and other states based solely on
population without regard to citizen population characteristics. Therefore,
a Three Judge Panel is required under 28 U.S.C. 2284 (a).
5. Under Article II, Sec. 3, cl. 5, the President must take care that the laws
be faithfully executed. This clause in the Constitution which imposes a
duty on the President to enforce the laws of the United States is called the
Take Care Clause, also known as the Faithful Execution Clause or
Faithfully Executed Clause. The One Person, One Vote Requirement,
upon establishment by the Supreme Court, became the Law in the United
States under 28 U.S.C. Sec. 1331. President Trump must consistent with
his Oath of Office enforce the One Person, One Vote Mandate and declare
the current congressional district apportionment by population alone
without regard to citizen characteristics unconstitutional and order re­
apportionment prior to the 2020 Congressional Elections.
6. Robert A. Heghmann resides in the State of Virginia and is registered to
vote in Virginia’s 9th Congressional District. He voted in the elections for
3

State Senate and State House of Representatives in 2019. He plans to vote
in the Congressional Election in the 9th Congressional District in 2020.
7. The Plaintiff alleges that because of apportionment of congressional
districts in Virginia and throughout the United States based solely upon
total population, without regard to the citizen characteristics of the
population, his vote and the votes of other suburban and rural voters in
the 2020 election will be debased and diluted in congressional elections.
Under the Supreme Court ruling in Baker v. Carr, 369 U.S. 186 (1962),
the Plaintiff has standing under Art. Ill, Sec. 2.
8. This action is brought by the Plaintiff pursuant to the United States
Constitution including, but not limited to Article II, Sec. 3, cl. 5,
Amendments 14 and 15 of the Constitution, and the Declaratory Judgment
Act, 28 U.S.C. Secs. 2201 and 2202. This Court has Subject Matter
Jurisdiction under 28 U.S.C. Secs. 1331 and 1343 (3). Venue is proper in
this District under 28 U.S.C. Sec. 1391 (a) (c) & (e).
9. Donald J. Trump is the President of the United States. He maintains an
office at The White House, 1600 Pennsylvania Avenue NW, Washington,
DC 20500. He is named in his capacity as President. The President is the
Chief Law enforcement Officer of the United States. In that capacity he,

4

as every President since George Washington, has the authority to declare
the apportionment adopted by Congress to be unconstitutional.
10.The Plaintiff after establishing the unconstitutionality of the current
congressional Districts under the One Man, One Vote Mandate will ask
this Court to direct the President to use his Veto Power and rule the current
districts unconstitutional and require re-districting before the 2020
congressional elections in order to bring all congressional districts
nationally within the One Person, One Vote Mandate.
11. Wilbur Cross is the Secretary of the U.S. Department of Commerce. He
maintains an office at the U.S. Department of Commerce, 1401
Constitution Avenue NW, Washington, DC 20230. He is named in his
official capacity as Secretary. The Census Bureau is a branch of the
Department of Commerce and reports directly to Secretary Cross.
The Horsey Rule
12. Wade H. Horsey II is a citizen of the United States and resides in Avon,
CT. In 1996 and 1998, Wade Horsey was a candidate in the Connecticut
House of Representatives from the Town of Avon, a suburb of Hartford.
In both elections Wade Horsey, an African American running as a
Republican candidate, received in excess of 8,000 votes and lost.

5

13.After the 1998 loss, Wade Horsey reviewed the election results and
realized that the Speaker of the Connecticut House of Representatives
running as a Democrat in an urban voting district Hartford won with 1200
votes.
14.Further analysis revealed similar results. Republican candidates running
in suburban and rural districts received thousands of votes and lost.
Democrats running in urban voting district received hundreds of votes and
won. Plaintiff Robert A. Heghmann, an attorney who served as Wade
Horsey’s Federal Election Commission Compliance Officer for the
campaign, was asked if there might be a violation of the “One Man, One
Vote” Mandate. I advised Wade Horsey that I believed it was fair grounds
for litigation.
15.On November 18, 1999 a complaint was filed in the United States District
Court in Connecticut, Wade H. Horsey v. Secretary of State, #3:99-cv2250 and assigned to District Court Judge Underhill. As required a Three
Judge Panel was convened and Second Circuit Court of Appeals Judge
Ralph K. Winter and District Court Judge Hall joined the Panel.
16.The issue placed before the Court was as follows:
Does apportionment of both state and congressional election districts
based solely upon total population without regard for the percentage
of citizens result in the effective impairment of suburban and rural
votes cast in both statewide and congressional elections as those
6

votes are debased and diluted thereby rendering the system of
apportionment based solely upon total population without regard to
citizen characteristics unconstitutional under the one person, one
vote mandate?
17.The Secretary of State moved to Dismiss for failure to state a cause of
action. On June 1, 2001 the Three Judge panel Denied the State’s Motion
to Dismiss and later noted, “Because Hosey offers information regarding
the percentages of citizens and non-citizens in different states and certain
congressional districts, there may be some evidentiary support for his
claim

that

including

non-citizens

for

apportionment

purposes

substantially dilutes his vote.” (citation to Record deleted) Horsey Slip
Opinion at 11. A copy of that opinion is attached as Exhibit 1.
18.In the wake of the 2000 Census, the Census Bureau published detailed
reports district by congressional district stating with 90% accuracy the
number of non-citizens in each district thereby permitting the Plaintiff to
factually demonstrate the constitutional violation. At the time of the 2000
Census, the Census Bureau announced that after the 2010 Census it would
report state legislative district by state legislative district the number of
non-citizens in each district but that information was not currently
available. Therefore, the Plaintiff abandoned the claim with regard to state
apportionment.

7

19.The Court then considered the Plaintiffs Offer of Proof and found, “The
data reveal that the percentage of non-citizens in Connecticut’s
congressional districts varies from between 2.2 percent and 9.7 percent.
However, this is within a generally accepted range of deviation from
equality. See Chen v. City ofHouston, 206 F.3d 502, 522 (5th Cir. 2000)
(less than 10% deviation is constitutionally tolerated for state elections);
Garza v. County of Los Angeles, 918 F.2d 763, 785 - 86 (9th Cir. 1990)
(Kozinski, J., concurring in part, dissenting in part).
20.Thus the rule in the Second Circuit is that (1) if a plaintiff offers
information regarding the percentages of citizens and non-citizens in
different congressional districts, there is evidentiary support for his claim
that including non-citizens for apportionment purposes substantially
dilutes his vote and (2) that a 10% deviation is the red line in determining
the generally accepted range of deviation from equality. In this case, the
Plaintiff is asking the Court to adopt this rule and apply it to congressional
voting districts in Virginia and in other states.
The Democratic Party’s Reaction to Horsey
21. The Democratic Party in Washington was well aware of the Horsey
litigation. Gregory D’Oria, the Assistant Attorney General defending the
case, advised me that when the Panel denied the State’s Motion to
8

Dismiss, his telephone (remember this was 2002) exploded. Every
Democratic leader in Washington wanted updates on the litigation. As a
result of the legal success of the Horsey litigation even though there was
no remedy, when Barack Obama became President, he Ordered the
Census Bureau to discontinue documenting the number of foreign-bom
non-citizens in congressional election districts and to abandon plans to
document the number of foreign bom, non-citizens in state legislative
election districts. The Census Bureau continues to adhere to that Order.
22.The Census Bureau as part of the Community Surveys continues to
document the percentages of foreign-born citizens and non-citizens in
each state and in counties and cities in each state. In Virginia, 12.1% of
the population is foreign-bom. Of these foreign -bom persons, 51.1% are
naturalized citizens while 48.9% of the foreign-bom are non-citizens.
The Current Constitutional Violations in Virginia
23. According to the 2017-18 Census Department’s Community Survey, the
population in the 9th congressional district where the Plaintiff resides and
votes, is 704,831. Of this the foreign-bom population in the district is 15,
260 or 2.2% of the total population. By contrast the 8th congressional
district has a population of 795, 467 of which 224,571 are foreign-bom or
28.2% of the total population.
9

24.While the Census Bureau per President Obama’s Order has not
documented the percentage of foreign bom who are naturalized citizens
versus non-citizens in each congressional district as it did in 2004, we do
know what counties comprise the 8th and 9th congressional districts. We
can use county citizen/non-citizen statistics to calculate congressional
district foreign-bom citizen versus foreign-bom non-citizen statistics.
25.The 8th Congressional District comprises all of Arlington County,
approximately half of Fairfax County and the City of Fairfax. Of
Arlington County’s 234,965 total population, 11.9% (27, 904) are foreign
bom non-citizens. Of Fairfax County’s 1,148,433 total population, 14.4%
(165, 387) are foreign bom non-citizens. Of the City of Fairfax’s 23,589
total population, 15.3% (3615) are non-citizens.
26. Combining Arlington County, half of Fairfax County and City of Fairfax,
14.4% of the population of the 8th Congressional District are foreign born
non-citizens. Even assuming all of the foreign-bom population in the 9th
Congressional District, 2.2%, is non-citizen (which is not likely) the
difference of 12.2% is outside the acceptable range to avoid violation of
the One Person, One Person Requirement.

10

The Constitutional Violations in New York
21. In New York City Immigrants make up 38% of the population. New York
City contains 11 Congressional Voting Districts. Once again, the Census
Bureau has not broken out the statistics on citizen versus non-citizen
population in each congressional district but it has broken out the noncitizen statistics in each county. Three of the eleven congressional districts
are contained in one county.
28.The sixth congressional district is contained entirely within the County of
Queens. Out of a population of 2,278,722, the foreign-born population of
Queens is 1,111,780. If these foreign-bom, 482,104, or 21.2% of the total
population, are non-citizens.
29.The ninth congressional district is entirely contained in Brooklyn. Of the
2,504,700 residents, 971,504 are foreign-born. Of these, 399,573, or 16%
of the total population, are non-citizens.
30.The 15th congressional district is contained entirely in the Bronx. Of the
1,432,132 residents, 513,499 are foreign-bom. Of the foreign-bom,
264,531, or 18.5% of the total population, are non-citizens.
31 .Compare these urban congressional districts with three suburban and rural
New York congressional districts. The 21st congressional district has
701,112 residents of whom 26,295, or .03% of the total population, are
11

foreign bom. The 22nd congressional district has 697,372 residents of
whom 42,674, or .06% are foreign-bom. The 23rd Congressional District
has 693,764 residents of whom 27,591, or .04% of the total population,
are foreign-bom.
32.Even if all the foreign born population in the 21st, 22nd and 23rd
Congressional districts foreign bom are non-citizens (which is not likely),
the districts do not fall within the permissible 10% difference required by
Horsey.
What Will Happen If This Court Does Not Act
33.Given the 2018 results, the Democrats who control the U.S. House of
Representatives will continue to flood urban areas with foreign bom noncitizens to create even more urban congressional districts which they will
dominate in elections. And the votes of suburban and rural congressional
districts citizens will continue to be diluted and debased due to the lack of
One-Person, One Vote protection. In addition, these suburban and rural
voters when they exercise their freedom of association to elect candidates
who reflect their views will not be able to successfully elect those
candidates because their votes are debased and diluted.

12

34.If our Representative Democracy is to retain the confidence of The People
and survive, this Court and the President must take a stand and defend the
- principle of One Person, One Vote.
Count I
President Donald J. Trump
Failure to Enforce the Laws of the United States, specifically the One
Person, One Vote Mandate
35.The Plaintiff incorporates and re-states the allegations contained in
paragraphs 1 through 34 as if fully set forth herein.
36. Under Article II, Sec. 3, cl. 5, the President must take care that the laws
be faithfully executed. This clause in the Constitution which imposes a
duty on the President to enforce the laws of the United States is called the
Take Care Clause, also known as the Faithful Execution Clause or
Faithfully Executed Clause.
37.The One Person, One Vote Mandate, upon establishment by the Supreme
Court, became the Law in the United States under 28 U.S.C. Sec. 1331.
President Trump must consistent with his Oath of Office enforce the One
Person, One Vote Mandate. He has failed to do so.
38. As a result of the President’s failure to defend the vote of the Plaintiff and
prevent it from becoming debased and diluted this Court must Order him
13

to declare the current congressional district apportionment by population
alone without regard to citizen characteristics unconstitutional and,
further, Order him to demand re-apportionment prior to the 2020
Congressional Elections.
Count II
Secretary Wilbur Mills
Aid and Abetting violation of Article II, Sec. 3, cl. 5
39.The Plaintiff incorporates and re-states the allegations contained in
paragraphs 1 through 38 as if fully set forth herein.
40-By succumbing to political pressure brought by President Obama and the
Congressional Democrats to suppress foreign bom non-citizen data by
congressional districts and state legislative districts, Secretary Ross, the
Commerce Department and the Census Bureau have aided and abetted the
President’s violation of the “faithfully executed” clause.
41. As a result, this Court must ORDER the Census Bureau to provide the
President and the states with data on foreign bom non-citizens in
congressional districts and state legislative districts on an annual basis.
Wherefore, the Plaintiff demands:

14

1. A Declaratory Judgment that the current apportionment of
Congressional Districts based upon population without regard
for citizen characteristics is unconstitutional;
2. An Order of the Court directing the Secretary of Commerce
to instruct the Census Bureau to provide citizenship data on
congressional districts to the Plaintiff and each state in the
United States for the purpose of re-districting congressional
districts to comply with the One Person, One Vote
Requirement;
3. An Injunction Ordering the President to enforce the law of the
United States, specifically the One Person, One Vote
Mandate, and require congressional districts to comply with
the Horsey Rule and establish congressional districts in each
state that are all within 10% of the congressional district with
the lowest percentage of foreign-bom non-citizens, and
4. An Injunction Ordering the Census Bureau to report on an
annual

basis

the

citizen/non-citizen

ratio

of every

congressional district and legislative district in the United
States.

15

The Plaintiff,

Robert A. Heghmann
P.0. Box 6342
Virginia Beach, Virginia 23456
Tel. 603-866-3089
Bob_Heghmnaa@Reagan.com

16

)0f/ er'y f k^~

o

1

UNITED STATES DISTRICT COURT

2

FOR THE

3

DISTRICT OF CONNECTICUT

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

C20
21

22
23
24

Docket No. 3:99 CV 2250 (SRU)
i

WADE H. HORSEY, II, Individually and on behalf of all other
Suburban and Rural Citizen Voters Similarly Situated,
Plaintiff r

v.
TRMTOAHLrlt' fecletary of che state of Connecticut, JEFF
J h
° th® United States House of Representatives
JOHN G. ROWLAND, Governor of the state of Connecticut
DENISE
L. HAPPIER, Treasurer of the State of Connecticut «Y
WYMAN,
„„„
Comptroller of the State of Connecticut, and the 20m
REAPPORTIONMENT COMMITTEE OF THE STATE OF CONNECTICOT
Defendants

25
26
27

\

28
29
30
31
32
33
34
35
36
37
38
39
40
41
42
43
44

i

Before:

WINTER, Circuit JnHgp
District Judass.

HALL, and UNDERHILL,

ROBERT A. HEGH-MANN, Law Office of'
Piazza and Pickel, Stamford,
Connecticut, for Plaintiff.
SUSAN QUINN COBB, Assistant
Attorney General of Connecticut,
Hartford, Connecticut and KERRY
W. KIRCHER, Deputy General
Counsel for the United States
House, of Representatives,
Washington, D.C. (Richard
Blumenthal, Attorney General of
Connecticut, Gregory T. D'Auria,
Associate Attorney General of
Connecticut, and Jane R.

Rosenberg, Assistant Attorney
General of Connecticut, of
counsel), for Defendants.

2

o'
2

MEMORANDUM AND ORDER

WINTER, Circuit Judap•

3

4
5

summary judgment to the defendants.

See Horsey v

No. 3:99CV2250 SRU, at 3 (D.
Conn. Sept. 18, 2002)

BvsiewlP7r
(memorandum

6

and order)

7

defendants to show cause why they should not be ordered
to

8

request that the Department of Commerce, Bureau of Census

9

provide the parties and the court with Census 2000

10
11

c

Wade H. Horsey moves for reconsideration
of our grant of

("Horsey T"\

He also asks us to order the

Supplementary Survey Profiles of fourteen Connecticut State
House of Representatives voting districts established in 1991.

12

In our prior decision, id , familiarity with which is

13

assumed, we granted summary judgment against
Horsey on his
claim that apportioning voting districts solely
on total

14
15

population denies him equal

protection of the laws because, as

16

a suburban voter, his vote is diluted relative
to that of an

17

urban voter for purposes of elections to the United
States

18

House of Representatives and to the Connecticut House of

19

Representatives.

20

assertion that urban districts have

Underlying this claim is Horsey's factual
disproportionate (to

21

suburban districts) numbers of persons who are not eligible

22

voters because they are aliens, minors,
or we might add,

23

felons.

We concluded that Horsey had submitted only

V__ /

3

o1

"speculative evidence based on various,
often non-comparable

2

demographic data," that was insufficient as a matter of law to

3

support these factual claims, Horsey lr at 3,
or to allow a

4

redrawing of the districts, id. at 14.

5

out the possibility that Horsey might cure
the evidentiary

6

deficiencies on a motion for reconsideration.

7

9

See id. at 16-

17 n.3.

8

c

We did, however, hold

On October 17, 2002, Horsey moved for reconsideration
and
submitted further evidentiary data in a supporting affidavit,

10

The defendants argue that Horsey's motion is untimely under

11

Rule 9(e)(1) of the Local Rules of the District of
Connecticut

12

and that it has been submitted without the accompanying

13

memorandum of law as required under Rule 9(e).

Defendants

14

also request that this court deny Horsey's application for an

15

order to show cause because he has provided
no legal basis for

16

requiring defendants to gather evidentiary support on his
behalf.
We grant Horsey's motion for reconsideration,

17
18

reaffirm our grant of summary judgment and deny Horsey's

19

request for an Order to Show Cause.

20
21

22
23

DISCUSSION
A.

Untimely Filing under r.nral Rule 9(e)(1)

Local Rule 9(e)(1) requires that motions for
reconsideration be "filed and served within ten (10) days of

4

o

1
2
3

the filing of the decision
sought,

and

or order from which such relief is

[that such motions]

shall be accompanied by a

memorandum setting forth concisely the matters or

controlling

4

decisions which counsel believes the Court
overlooked in the

5

initial decision or order."

6
7

D. Conn.

L. Civ.

(reserved and recodified at D. Conn. L.
(2003)) .

R-

Civ. R.

9(e) (1)
7 (c) (1)

Defendants are correct that Horsey's motion is

8

untimely by almost three weeks and lacks
a supporting

9

memorandum of law.

10

Motions for reconsideration under Local Rule 9(e)

are

11

essentially motions for amendment of judgment under
Fed. R.

12

Civ.

C: 13

14
15
16

133

P.

59(e).

(2d Cir.

See City of Hartford ^

1991)

p.

60 (b) .

942 F.2d 130,

When such motions are untimely,

construed as motions for relief
Civ.

Chase,

from judgment under Fed. R.

See Wright, Miller & Kane,

and Procedure § 2817 & n.16,

they are

at 184

Federal Prsft-^p

(1995).

Although a

17

district court retains the "inherent
power to decide when a

18

departure from its Local Rules should be
excused or

19

overlooked," see Somlvo v. ,t

Lu-Rob Enters |

932 F.2d 1043,

20

1048

21

of Civil Procedure may shed light on whether
a district court

22
23

(2d Cir.

1991),

specific provisions of the Federal Rules

has abused its discretion in departing from its local
rules.
See Ass 1 n for Retards CiM^nc of Conn

5

Inc . -V • Thorne,

68

o1

(2d Cir. 1995)

(finding no abuse of

2

discretion where district court's consideration of untimely-

3

motion was " [b]ased on rationales for
granting Rule 60(b)

4

relief").

5
6
7

While reluctant to disregard rules and deadlines,
and
mindful of Horsey's failure in other regards to observe
procedural niceties, see Horsey T

at 5 6, we will entertain

8

his motion.

9

that we invited him to submit this
data, see id.. at 16-17

10

c

F-3d 547, 553-54

First, Horsey's motion is somewhat
unusual in

n- 3, rendering his motion

equally analogous to a supplement of

11

the summary judgment record
as to a motion for

12

reconsideration.

13

serious constitutional issues, in particular whether a

14

disproportionate number of

15

Second, some of Horsey's claims raise

non-voting-eligible persons in one

district violates the rights of voters in other districts.

16

are reluctant in such circumstances not to give him
every

17

opportunity to pursue his claim.

18

We

Courts have the latitude to deal with
extenuating

19

circumstances under Fed. R. Civ. P. 60 (b) (6) , which provides

20

that courts may relieve a party from a final judgment for »
any
other reason justifying relief from the
operation of the

21
22

judgment."

23

reconsideration and consider the impact of his new data
on our

For these reasons, we grant Horsey's motion for

6

o

2

3

The Nature of Horsey -g
In his pleadings and other submissions, Horsey challenges

the apportionment of:

5

Representatives districts;

6

districts within Connecticut; and (iii) Congressional

7

districts nationally, in particular,

(i) Connecticut State House of
(ii) United States congressional

Connecticut, New York and

8

California.

9

federal government allocates the number of
seats to the United

11

Horsey also challenges the manner in which the

States House of Representatives.
In our prior opinion, we viewed Horsey's claim of

12

unconstitutional dilution as mainly based on the

13

disproportionate combination of residents who were either
noncitizens or were citizens ineligible to vote (hereafter

14
15
16
17

"ineligible citizens").

See id. at 2.

However, we do note

that, at times, Horsey has characterized his
apportionment
challenges as based solely on disparities in the numbers
of

18

citizens and non-citizens among legislative districts,1 and

19

that, at other times, he has described his claims
as based

20

solely on disparities in the numbers of ineligible citizens.2

21

See Second Amended Compl. at

22

28, 30, 33, 51.

23
r~"\

B.

4

10

c

prior summary judgment order.

12,

See also Horsey T f

Horsey's claim as focused

13, 16, 17, 22, 25, 27,
at 2

(characterizing

on apportionment practices that have

vJ
7

o1

"given no regard to whether the number of citizens eligible
to

2

register to vote ('eligible voters')

3

districts is also egual")

4

in the resultant

Our analysis of Horsey s new

evidence varies depending on whether his claims are

5

characterized as based on disparities resulting from the

6

number of aliens, ineligible citizens, or a combination

7

thereof.

8

C-

9
10

Horsey' s New Evidentiary SiihmisBinn

Horsey's affidavit offers three sets of data based on
Census 2000 Supplemental Survey Profiles.

Two sets compare

11

Connecticut s Sixth Congressional District3
to a total of

12

G13

eight or nine congressional districts in California and New
York.
Horsey's first set of data shows that the total number

14

of votes cast in the Sixth Congressional District
exceeded by

15

more than 100,000 the total number of votes cast in the New

16

York and California

17

Horsey's second set of data shows that whereas Connecticut's

18

Sixth Congressional District has 2.9 percent non-citizens,

19
20

nine congressional districts spread across California and
New
York have non-citizen populations of between
17.8 percent and

21

40.7 percent.

districts.

See id. at ^ 12.

See Heghmann Aff. at f 8.

A third set of data shows

22

that Connecticut has a total non-citizen population
of 4.9

23

percent whereas California s non-citizen population is
15.7

o

8

o1

2

3
4
5
6

percent and New York's is 10.9 percent.

We find this submission insufficient to justify
overturning our prior decision for
1.

Claims Regard-in.

the reasons that follow.

Ineligible Citizpng -or_a Combinat.i nn

of. Ineligible riti^ns and Aliens
Horsey's new submission provides no
support for his

7

claims regarding disparities resulting from the number of

8

ineligible citizens or

9
10
11
12

C-13
14

a combination of ineligible citizens

and aliens among Connecticut state legislative
and federal
congressional districts,

The submission includes data showing

only the distribution of citizens
whereas his factual claims

j

15

See id. at f 14.4

citizens or

and aliens within districts,

as to the inclusion of ineligible

a combination of ineligible citizens and aliens

require a different and more refined showing.
Although there is an overlap between citizenship
and

16

voter eligibility, the need for naked speculation to
support

17

his claim regarding the distribution

18
19

of ineligible citizens in

the various voting districts at issue is not eliminated
by the
new data.
To uphold his factual claim we would need to know

20

the distribution of those under 18 who
are citizens in each

21

district and the distribution of those who
are over 18 but

22

ineligible to vote as felons in each district,

23

o

be necessary for Horsey to provide evidence

9

It. might also

showing how many

o1

residents of particular areas live in "institutions,

dormitories, and other group quarters,"
their eligibility to

3

vote,
note.

5

presented.

See id.

o

14

While we construe the

Lobby.

Tnr ,

477 U.S.

255

(1986),

a non-movant cannot
asserting the

existence of some unspecified disputed material
facts,"
Borthwickv
(2d Cir.

First Georgetown

1989),

or conjecture," W. Wor-l H t^o
121

(2d Cir.

Inc . .

892 F.2d 178,

181

or defeat the motion through mere speculation

citations omitted).

o

242,

"escape summary judgment merely by vaguely

18

23

and draw all

permissible inferences in his favor,
See Anderson v. T.jberty

118,

22

far more

record in the light most favorable

to the non-movant on a
summary judgment motion,

17

21

for remedial purposes,

boundaries of the districts involved.

12

20

Finally,

7

11

at A-6

None of this information is included in the census data

localized information would be
necessary to redraw the

10

19

See id..

6

9

16

and where they are registered to vote.

4

8

15

college

2

1990)

Co

v■

Stack Oi1.

Inc.,

922 F.2d

(internal quotation marks and

As explained above, Horsey's new submission does
not
eliminate the need for wholly

speculative inferences,

and we

therefore adhere to our prior grant of
summary judgment to the
defendants on these claims.
2.

Cl.aims Regarding Cit-i^ng and Aliens

10

o’2
3
4
5
6

Because Horsey offers information regarding the
percentages of citizens and

non-citizens in different states

and certain congressional districts,
see Heghmann Aff. at UK
12, 14, there may be some evidentiary
support for his claim
that including non-citizens for apportionment
substantially dilutes his vote.

7
8
9
10

purposes

(i)
Apportionment of State

House of Representatives Districts

The citizen/non-citizen

evidence submitted by Horsey

11

relates only to the composition of districts for
the United

12

States House of Representatives,

13

o

"14
15
16
17
18
19
20

has no bearing on his claims

This evidence, therefore,

regarding the composition of

Connecticut 's House of Representatives

districts, and we

adhere to our prior ruling on this claim.
(ii)
Apportionment of Congressional

Districts within Connecticut

In our prior decision, we noted that Horsey had
expressly
waived mandatory relief relating
to the apportionment of

21

congressional districts within Connecticut,
see Horsey T. at

22

6, but that he continued to seek
a declaratory judgment that

23

these apportionments are unconstitutional,
see id.5

24

In his affidavit accompanying his. new submission,
Horsey
provides instructions on how to compile
comparative

25

o

11

o1

2

citizen/non-citizen data for Connecticut1s six congressional
districts as they existed in the year 2000.

See Heghmann Aff.

3

at 1 5.

4

instructions we will have " all the statistical evidence

While Horsey states that, if we follow these
[we]

5

need[] to rule [on] the issues raised by [Horsey] regarding

6

the dilution of his vote in congressional elections,"
id.. he

7

neither compiles the statistical information nor elaborates
on
its relevance to, or effect on,
his equal protection claim.

8
9

While we are reluctant to interpret data
that is not

10

properly submitted or explained, we consider it,
such as it

11

is, but find it unpersuasive.

12

percentage of non-citizens in Connecticut
s congressional

Q;3

The data reveal that the

districts varies from between 2.2 percent and 9.7
percent.

14

However, this is within a generally accepted range of

15

deviation from equality.

16

F•3d 502, 522 (5th Cir. 2000)

17

constitutionally tolerated for state elections); Garza v

18

County_of Los Anaplpg

19

(Kozinski, J-, concurring in part and dissenting in
part)
(same).

20
21

Moreover,

Sse Chen v.—City of Houston. 206
(less than 10% deviation is

918 F.2d 763, 785-86 (9th Cir. 1990)

it is not at all clear, and Horsey's papers are

22

unhelpful in this regard, that the data offered is

23

sufficiently refined to allow

o

the redrawing of congressional

12

o1

districts to achieve the equality in citizen population that

2

he wants.

3

basis for our earlier decision.

A similar lack of refined data was in part the

4

See Horsey I. at 14.

(iii)

5
6
7

Apportionment of Congressional Districts Nationally

8

relief of all claims relating to the apportionment of

9

congressional seats among the states, although he continues
to

As noted in our prior decision, Horsey filed a waiver of

10

seek a declaratory judgment that these apportionments are

11

unconstitutional.

12

which indicates that some states may receive a

13

disproportionate share of congressional seats due to higher

G14

See id,. at 6.

Horsey's new evidence

numbers of non-citizens - - provides factual support for his

15

claim.

16

the Constitution.

Nevertheless, his claim is foreclosed by the
text of

17

The Fourteenth Amendment states that "Representatives

18

shall be apportioned among the several States according to

19

their respective numbers, counting the whole number of
persons

20

in each state, excluding Indians not taxed."

21

amend. XIV,

22

merit, i.e., for us to conclude that the federal
government

23

has unconstitutionally included non-citizens in its

24

apportionment determination, the meaning of "persons"
would

o

§ 2 (emphasis added).

13

U.S. Const.

For Horsey's claim to have

1

o,
3
4
5
6

have to be restricted to "citizens."

The text of the

Fourteenth Amendment clearly indicates that this
interpretation is incorrect.

Section 1 of the Fourteenth

Amendment uses both terms in a manner suggesting that
persons" comprises a broader category of people that includes
k°th citizens and non-citizens.

See. U.S. Const. amend. XIV,

7

1 ("No State shall make or enforce
any law which shall abridge

8

the privileges or immunities of citizens of the United States;
nor shall any State deprive
any Pers°h of life, liberty, or

9
10

property, without due process of law;
nor deny to any person

11

within its jurisdiction the equal protection of the laws.")

12

(emphasis added).

G
14
15

Nor does the pre-Civil War text of the
Constitution lend
support to Horsey s argument that the apportionment of
representatives is restricted to citizens.

As originally

16

enacted, the Constitution deliberately "diluted"
the voting

17

power of citizens living in free states by counting three-

18

fifths of all slaves in the

19
20

apportionment determination.

U.S. Const. art. I, § 2, cl.
3 ("Representatives .
be apportioned among the several States

See

. shall

• according to

21

their respective Numbers, which shall be determined by adding

22

to the whole Number of free Persons, including those bound
to
Service for a Term of Years, and excluding Indians
not taxed,

23

§

G
14

1

o2

thr"ss fifths of all other Persons.").

While Horsey s new

evidence may support his argument that there
is a disparity

3

between citizenship and the allocation of
congressional

4

representatives among the fifty states, this disparity is

5

sanctioned by the Constitution.

6

Horsey's remaining claim is therefore limited to

7

disparities among congressional districts in California
and

8

among congressional districts in New York with regard to the

9

numbers of resident citizens and non-citizens.

10
11
12

Q

Horsey lacks standing to bring such a claim.

However,
As a non-

resident of either state, Horsey has suffered
no cognizable
injury from the alleged malapportionment of California
s or
New York s congressional districts,
Nor may Horsey bring an

14

equal protection claim on behalf of California
and New York

15

residents who have had their

16

states' redistricting.

votes diluted by their respective

See. United Stat.p.g -w

Hays. 515 U.S.

17

737, 739 (1995)

18

assert an equal protection voting rights claim in a state

19

where he or she is not

20

(holding that plaintiff lacks standing to

a resident of the challenged district);

See_also Dillard v ^—Baldwin Countv Comm 1 re

225 F.3d 1271,

21

1279 (11th Cir.

22

plaintiff lives in the

23

has standing; if she does not,
she must produce specific

o

2000)

(interpreting Hays to mean that "if the
racially gerrymandered district, she

15

1

o2
3

evidence of harm other than the fact that the
composition of
her district might have been different were it not for the
gerrymandering of the other district."); cf

Allen v

Wright r

4

468 U.S. 737,

5

equal protection challenge where he is "personally denied

6

equal treatment"); Valley Forge Christ! an Coll

7

755 (1984)

(plaintiff only has standing to bring

United for Separation of Church and .qt-at-o,

8

90 n.26

9

citizen has "

(1982)

-»•

Americans

454 U.S. 464, 489-

(disapproving the proposition that every

standing to challenge every affirmative-action

10

program on the basis of a personal right to
a government that

11

does not deny equal protection of the laws").

12

c)

a

Request for an Order to Show fausp
Horsey requests that we order the defendants
to show

14

cause why they should not be ordered to
request that the

15

Bureau of Census provide the parties and the
court with Census

16

2000 Supplemental Survey Profiles of fourteen Connecticut

17

State House of Representatives

voting districts established in

18

1991 .

19

purchased a Special Tabulation showing the percentages of
non-

20

citizens in various Connecticut

We deny this request,

Not only could Horsey have

State House of Representatives

21

districts from the Bureau of Census,6 but it remains unclear

22

whether such a tabulation, would contain
sufficient data to

23

permit findings on the number of eligible

o

16

voters in the state

1

o2
3

districts.
CONCLUSION
For the reasons indicated, we grant Horsey's motion for

4

reconsideration, reaffirm our earlier grant of summary

5

judgment for the defendants, and deny Horsey's request for an

6

Order to Show Cause,

7

view on whether Horsey's claims, if factually supported,
would
be valid.

8

We again emphasize that we intimate no

9
10
11
12

o

o

/s/_Ralph K. Winter
Ralph K. Winter, U.S.C.J.

17

o

FOOTNOTES

1. See

e . q. , Second Amended Compl. at 22 (demanding

preliminary and permanent injunction
preventing Clerk of the
U.S. House of Representatives from
including representatives
from any state "in which election districts are not
apportioned to reflect as nearly as possible equal
percentages
of the citizen population") ;
Plaintiff's Reply to Defendants'
Obj ections to the Plaintiff

s Motion for Reconsideration and

Application for an Order to Show Cause
at 2-3:

C

Because the Census Bureau has now published
detailed reports congressional district bv
congressional district stating with 90%
accuracy the number of non-citizens in each
district, the plaintiff if permitted
to do
so can now factually demonstrate the
constitutional violation.
The constitutional issim simply stated
—the disparity in the vote total
between voting districts rpfiPr!tdisparity in the distrjbnt -i rm of the
Citizen pppulafinn
. Now the plaintiff
can
ta_link the ^sgaritvr?n^hrdistrLn^ZyS
or the citizen population with
disparity jn the vote totals
(emphasis added)

2. An equal protection claim that apportionment
must be based
solely on the number of citizens
differs crucially from

O

resident in a district

a claim that apportionment must be
18

o

based solely on the number of eligible voters.

Whereas

upholding the former would exclude aliens, upholding the
latter would exclude citizens as well, principally minors and
felons.

There is of course a tension between
equality of

representation and equality of voting power.

However, a claim

of dilution seems intuitively weaker when based
solely on
a district.
dilution of voting power in one district based on
a disproportionate number of minor citizens in
another does
n°t discriminate between groups with differential claims
to
process.

C

Minors are denied

on grounds of judgment and independence
;

rather than a weak claim to representation.

Aliens,

are denied the right to vote based
another nation, their presumed smaller
of American elections, etc .

3. Ironically, Connecticut'

s Sixth Congressional District no

longer exists following reapportionment after the
2000 census
although the apportionment of state House of Representatives
districts is unaffected by these changes.
to federal House districts

o

Horsey's claims as

are nonetheless not moot because

they might escape review and recur.

19

See. Southern Parifir

■Terminal Co. v. ICC, 219 U.S. 498,
515 (1911)

(providing an

exception to the mootness doctrine for situations "capable of
repetition, yet evading review."). ■
4. Horsey has also instructed this court
on how to compile a
fourth data set providing information on the numbers of
citizens and non citizens in Connecticut
s congressional
districts.

See Heghmann Aff. at

5.

5. In view of our disposition, we need not reach the propriety
of both waiving relief and seeking a declaratory judgment in
these circumstances.

o
6. In order to obtain these numbers, Horsey would have had to
determine which census tracts corresponded to the
state house
districts.

Once he had this information, the census could

have performed a statistical breakdown similar
to one Horsey
provided for congressional districts in the affidavit
accompanying his motion for reconsideration.

A
20

